<html>
<title> - MEMORIAL ADDRESSES AND OTHER TRIBUTES HON. ALAN NUNNELEE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 

                             
                             
                             
                             
                             
                             
                             
                             Alan Nunnelee

                       LATE A REPRESENTATIVE FROM

                              MISSISSIPPI

                                                         

                           MEMORIAL ADDRESSES

                           AND OTHER TRIBUTES

                           Hon. Alan Nunnelee

[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                              
                               1958-2015

                 
                 
                 


                               Memorial Addresses and

                                   Other Tributes

                        HELD IN THE HOUSE OF REPRESENTATIVES

                                OF THE UNITED STATES

                          TOGETHER WITH A MEMORIAL SERVICE

                                     IN HONOR OF

                                    ALAN NUNNELEE

                         Late a Representative from Mississippi

                                                                                 
                            
                            One Hundred Fourteenth Congress

                                     First Session
                             
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                          
                                        
                            Compiled under the direction

                                       of the

                             Joint Committee on Printing
                                      
                                      CONTENTS
             Biography.............................................
                                                                      v
             Proceedings in the House of Representatives:
                Tributes by Representatives:
                    Rohrabacher, Dana, of California...............
                                                                      5
                    Thompson, Bennie G., of Mississippi............
                                                                   3, 4
             Memorial Service......................................
                                                                      7
                

                                      BIOGRAPHY

               Congressman Alan Nunnelee represented the citizens of 
             Mississippi's First Congressional District. On January 5, 
             2011, he took the oath of office to support and defend our 
             Constitution. Alan believed that the strength of America 
             lies in its people, neighborhoods, churches, and 
             communities, not the Federal Government. He was known for 
             his conservative, pro-life, pro-family, fiscally 
             responsible values and was a defender of the Second 
             Amendment. He served on the House Appropriations Committee 
             and the Agriculture, Energy and Water and Military 
             Construction and Veterans Affairs Subcommittees.
               Before joining the 112th Congress, Alan represented Lee 
             and Pontotoc Counties in the Mississippi State Senate. As 
             chairman of the appropriations committee, he developed a 
             reputation as a strong fiscal conservative. Every year he 
             was chairman the budget was balanced without raising 
             taxes. Prior to that role, Alan chaired the Mississippi 
             State public health and welfare committee where he fought 
             against waste in Medicaid and was a leader on several 
             national committees addressing public health issues. He 
             also stood shoulder to shoulder with his fellow 
             conservatives during the tort reform battles in 2003 and 
             helped Governor Haley Barbour pass comprehensive tort 
             reform in 2004.
               Known as a champion of pro-life causes, Alan was 
             nationally recognized for his success in helping make 
             Mississippi the safest place for unborn children. Alan 
             also knew that faith in God is a cornerstone of American 
             life. In 2001, he authored legislation to place our 
             national motto, ``In God We Trust,'' on the wall of every 
             school classroom in Mississippi at zero cost to the 
             taxpayers.
               In Congress, Alan continued his work as a fiscal 
             conservative by voting for spending cuts, the balanced 
             budget amendment, and repeal of Obamacare.
               Alan was a graduate of Mississippi State University. 
             Prior to Congress, he was vice president of Allied Funeral 
             Associates, a life insurance company and a member of the 
             Community Development Foundation's board of directors.
               Alan was a deacon and Sunday School teacher at Calvary 
             Baptist Church. He and his wife Tori have three children, 
             Reed who is married to Kemily, Emily who is married to 
             Trey, and Nathan who is married to Colleen. Alan and Tori 
             also have two grandchildren, Thomas Kemp Nunnelee and 
             Harper Grace Nunnelee.


                                           


                                 MEMORIAL ADDRESSES

                                         AND

                                   OTHER TRIBUTES

                                         FOR

                                    ALAN NUNNELEE
                

                     Proceedings in the House of Representatives
                                               Monday, February 9, 2015
                                        PRAYER
               The Chaplain, the Reverend Patrick J. Conroy, offered 
             the following prayer:
               Gracious God, we give You thanks for giving us another 
             day.
               In this Chamber, where the people's House gathers, we 
             pause to offer You gratitude for the gift of this good 
             land on which we live, for this great Nation which You 
             have inspired in developing over so many years. Continue 
             to inspire the American people that through the 
             difficulties of these days we might keep liberty and 
             justice alive in our Nation and in the world.
               Give to us and all people a vivid sense of Your 
             presence, that we may learn to understand each other, to 
             respect each other, to work with each other, to live with 
             each other, and to do good to each other. So shall we make 
             our Nation great in goodness, and good in its greatness.
               On this day we also ask Your blessing of peace and 
             consolation upon the family of Representative Alan 
             Nunnelee of the First District of Mississippi, who is 
             being laid to rest this day. Bless as well the Members of 
             this House, his staff, and all who mourn him. May he rest 
             in peace.
               May all that is done this day be for Your greater honor 
             and glory.
               Amen.
                                             Tuesday, February 10, 2015
               Mr. THOMPSON of Mississippi. Mr. Speaker, I offer a 
             privileged resolution and ask for its immediate 
             consideration.
               The Clerk read the resolution, as follows:
                                      H. Res. 99
                In the House of Representatives, U.S., February 10, 
             2015:
                 Resolved, That the House has heard with profound 
             sorrow of the death of the Honorable Alan Nunnelee, a 
             Representative from the State of Mississippi.
                 Resolved, That the Clerk communicate these resolutions 
             to the Senate and transmit a copy thereof to the family of 
             the deceased.
                 Resolved, That when the House adjourns today, it 
             adjourn as a further mark of respect to the memory of the 
             deceased.

               The resolution was agreed to.
               A motion to reconsider was laid on the table.
               MOMENT OF SILENCE IN REMEMBRANCE OF THE LATE HONORABLE 
                                    ALAN NUNNELEE
               Mr. THOMPSON of Mississippi. Mr. Speaker, on Friday we 
             lost our colleague Alan Nunnelee, who represented the 
             First Congressional District of Mississippi.
               Yesterday was the funeral for Congressman Nunnelee. The 
             entire Mississippi delegation and 40 other Members of 
             Congress attended.
               Mr. Speaker, I ask that the House pause for a moment of 
             silence in remembrance of Congressman Nunnelee.

               The SPEAKER. Members will rise and observe a moment of 
             silence.

               The SPEAKER pro tempore (Mr. Rouzer). Pursuant to the 
             order of the House of January 6, 2015, the Speaker on 
             February 9, 2015, appointed the following Members of the 
             House to the committee to attend the funeral of the late 
             Honorable Alan Nunnelee:
               The gentleman from Mississippi, Mr. Thompson
               The gentleman from Ohio, Mr. Boehner
               The members of the Mississippi delegation:
               Mr. Harper
               Mr. Palazzo
               Other Members in attendance:
               Mr. McCarthy, California
               Mrs. McMorris Rodgers
               Mr. Aderholt
               Mr. Neugebauer
               Mr. Conaway
               Mr. McHenry
               Mr. Fleming
               Mr. Thompson, Pennsylvania
               Mr. Walberg
               Mr. Benishek
               Mrs. Black
               Mr. Denham
               Mr. Flores
               Mr. Hultgren
               Mr. McKinley
               Mr. Womack
               Mr. Hudson
               Mr. Messer
               Mrs. Radewagen

               Mr. ROHRABACHER. Mr. Speaker, I move that the House do 
             now adjourn.
               The motion was agreed to; accordingly (at 9 o'clock and 
             13 minutes p.m.), under its previous order and pursuant to 
             House Resolution 99, the House adjourned until tomorrow, 
             Wednesday, February 11, 2015, at 10 a.m., for morning-hour 
             debate, as a further mark of respect to the memory of the 
             late Honorable Alan Nunnelee.
                           Honorable Patrick Alan Nunnelee

                       United States House of Representatives

             [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]              


                             2:30 p.m., February 9, 2015

                               Calvary Baptist Church

             Survivors:

             His wife Tori and their three children, Reed (Kemily), 
             Emily (Morris), and Nathan (Colleen). Alan referred to his 
             children's spouses as his daughters-in-love and son-in-
             love, ``because the relationship is created by love and 
             not by law.'' He also leaves behind three grandchildren, 
             Thomas, Harper, and a grandson expected in April; his 
             parents Sandra and Pat; four sisters, Lisa (Carl), Dodie 
             (Scott), Shannon (Jimmy), and Ammi (Brian); two brothers, 
             Joshua (Allie) and Matthew (Olivia); his mother-in-love, 
             Pat Bedells, and brother-in-love, Barry Bedells (Karen); 
             eighteen nieces and nephews; and many aunts, uncles, and 
             cousins.

             Pallbearers:

             Morgan Baldwin, Mike Currie, Doug Davis, Ted Maness, 
             Dickie Rhea, Rob Rice, Jordan Russell, and Giles Ward

             Honorary Pallbearers:

             Members of Rep. Nunnelee's Congressional Staff

             [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
             
             
                       
             Micah 6:8

             ``He has shown you, O mortal, what is good. And what does 
             the Lord require of you? To act justly and to love mercy 
             and to walk humbly with the Lord your God.''

             1 Thessalonians 5:16-18

             ``Rejoice always, pray continually, give thanks in all 
             circumstances; for this is God's will for you in Christ 
             Jesus.''
                                Patrick Alan Nunnelee
                          October 9, 1958-February 6, 2015


             Order of Service

Presentation of Colors .............................

Mississippi



State Highway Patrol Honor Guard

Special Music .......

Calvary Baptist Church Quartet

                                ``Happy Over There''

Opening Remarks ......................................

Rex Gillis

Opening Hymn .................................

Congregation

                            ``Great is Thy Faithfulness''

Special Speaker .............................

Gov. Phil Bryant

Special Music ................................

Rev. Doug Spires

                               ``The King is Coming''

Eulogy ................................................

Reed Nunnelee

Hymn .................................................

Congregation

                                ``Be Thou My Vision''

Message ...........................................

Dr. Ed Deuschle

Folding of the United States Flag .........

Mississippi



State Highway Patrol Honor Guard

Presentation of the

    United States Flag .................

Gov. Phil Bryant

Special Music .......

Calvary Baptist Church Quartet

                              ``America the Beautiful''

Recessional .......................................

Congregation

                                ``Because He Lives''


                                      Pianist:

                                     Lisa Tally

                                      Organist:

                                    Lynn McGrath
                                     LIFE STORY
               Patrick Alan Nunnelee, 56, of Tupelo, Mississippi went 
             to be with the Lord on February 6, 2015 with his family by 
             his side.
               He was born in Tupelo on October 9, 1958 to Sandra and 
             Pat Nunnelee and spent most of his childhood in Columbus, 
             Mississippi. His family moved to Clinton, Mississippi in 
             1975, where he graduated from Clinton High School in 1976. 
             Alan attended Mississippi State University where he served 
             in the Student Government Association and graduated with a 
             degree in marketing in 1980. After graduation, he went to 
             work with American Funeral Insurance Company selling life 
             insurance. He fell in love and married Tori Bedells 
             Nunnelee of Clinton on April 10, 1982. The company 
             promoted him to Regional Sales Manager in 1987, and Alan 
             transferred his family to Morristown, Tennessee where they 
             lived for seven years. In 1994, he was promoted to 
             National Sales Manager and returned to Mississippi. Alan 
             and his father formed another life insurance company, 
             Allied Funeral Associates, in 1996, and he spent the 
             remaining years of his life building their company into a 
             small-business success story.
               Alan was known to many as a servant. Some may remember 
             him through his work with the Mississippi Lions Club Eye 
             Bank and donor recovery program. During his college years 
             he was diagnosed with an eye condition, which ultimately 
             caused him to lose his sight. Through the loving acts of 
             two donors, he received cornea transplants, which restored 
             his eyesight. He spoke in churches and civic groups all 
             over Mississippi telling his story. He also served his 
             church faithfully, teaching Sunday School classes of all 
             ages and serving as deacon at First Baptist Church in 
             Morristown and later at Calvary Baptist Church in Tupelo.
               Alan's servant heart prompted him to be exceptionally 
             active in the political arena. He spent many years 
             campaigning for political candidates and issues whose 
             views represented his conservative values. In 1995 he was 
             elected to the Mississippi State Senate. He served the 
             people of North Mississippi for 15 years, chairing 
             multiple committees and tirelessly traveling back and 
             forth to the Capitol. Alan was elected to the United 
             States House of Representatives in 2010 where he served 
             until his death. He took great joy in telling people of 
             his beloved Mississippi. His life's work revolved around 
             protecting and promoting the family, defending the lives 
             of unborn babies, and cultivating an environment for job 
             creation.
             Rex Gillis. Tori asked me to share with you that Alan 
             loved Gospel music and this one will make your toes tap, 
             but we are here for a celebration, let's keep that in 
             mind.

             [``Happy Over There.'']

             Rex Gillis. That was great. Mark 10:45: ``Jesus said, `For 
             even the Son of Man came not to be served, but to serve.' 
             '' And gave his life for ransom for me. We are here to 
             celebrate, we just started celebrating, the life of one of 
             God's greatest servants, Alan Nunnelee. You know Alan 
             wouldn't have had it any other way, for Alan was at peace, 
             in Jesus' presence and he's smiling, and he doesn't want 
             to come back. Now selfishly, I want him to come back. Just 
             like I know you would. My name's Rex, I'm a longtime 
             friend from Columbus, Mississippi, where I went to high 
             school and church with Alan.
               I'm both humbled and honored that Tori asked me to share 
             today about a great man. Going way back now, we've all 
             been teenagers. Unfortunately, I did some things that I 
             didn't really want my kids to know about. I think we've 
             all been there. But you know, Alan was always upright and 
             he was the good kid. Never in trouble like the rest of us, 
             but I had one good story on him where he slipped up. 
             That's always good to have, is one good story on your 
             Congressman. However, when I was at his home, and Tori 
             invited me about 10 days ago and I was bedside holding his 
             hand and we were talking, I said, ``You know, I think I'm 
             going to tell that story,'' and Alan with extra energy 
             surged up and said, ``No!'' So I promised him I wouldn't 
             share and I won't today. But the truth is, is that Alan's 
             standards were so high, that for us that story was not a 
             big deal because we were in trouble all the time, but for 
             Alan it was a big deal. Because he had impeccable 
             character.
               Now when Tori called me from the hospital Saturday, 
             January 24, she told me that Alan had turned for the worst 
             and that the medical community, which had served him well, 
             had done all that they could do. Suddenly Alan, in his 
             bed, turned to Tori, and said, and in his toughest 
             situation I might add, said, ``How's Rex doing?'' Did not 
             those actions speak louder than the words?

             ------------
               The funeral service was transcribed by the staff of the 
             House Republican Conference.
               Yesterday I received a message from another fellow high 
             school classmate, Dr. Rusty Linton, a surgeon and the 
             Mississippi State team doctor. This is what the message 
             said. ``Over the last year, every time I sent Alan a text 
             of encouragement, he asked about my wife and said that he 
             and Tori were specifically praying for her. He always 
             downplayed his problems and showed care for my wife. 
             Selfless. Humble. I sent him a text on Super Bowl Sunday 
             thanking him for all of that and for being my friend. He 
             was a true man of God and the kind of leader that 
             Washington needs more of.''
               I think the point is, and it's obvious, that Alan was 
             deeply struggling, and his first concern was others. Alan 
             always lived his life concerned about the welfare of 
             others. Above himself. Always strong for others, he did 
             not have to seek for strength, he just always seemed to 
             have that strength. He was who he was, always. He just 
             generally lived life in action to serve others. That's all 
             I can remember. Alan, many times over his political 
             career, he would state, and this is a quote from Alan, 
             ``It's not about a person named Alan Nunnelee, but a voice 
             of the people seeking change, motivated by their love of 
             country.''
               He personifies the message that was on Ronald Reagan's 
             desk. It said there's no limit to what a man can do, or 
             where he can go if he doesn't mind who gets the credit. 
             You know that was Alan. We believe that there was a 
             calling on Alan's life to serve the people publicly. He 
             was obedient to be God's man for our community, for our 
             State, and for our country. Simply, Alan made a 
             difference. For that reason we celebrate today. He leaves 
             a great legacy for his family. He'll be remembered as a 
             great man who served others.
               Now family and friends, the Bible in Nahum 1:7 says, 
             ``The Lord is good, a stronghold in a day of distress; He 
             cares for those who take refuge in Him.'' We are all here 
             today to encourage the Nunnelee family and some of our 
             friends and colleagues.
               Now, we all know the truth; behind every great man is a 
             great woman. Tori, you define the virtues of a Proverbs 31 
             woman. In every aspect a wife is to serve her husband, and 
             that you did. You lived it out. Besides Alan experiencing 
             your overwhelming love, you have ministered to the rest of 
             your family, your two sons, your daughter, your father, 
             father-in-law and mother, your in-laws, your sisters, your 
             church, your community, everyone around you. What we 
             witnessed were the virtues of your faith, marriage, 
             finances, your career, your homemaking, your beauty, and 
             all the wise use of your time. Your countenance today in 
             this place is overwhelming. God's peace transcends through 
             this whole process, and as we gather today to celebrate, 
             because we know where you're at, we know where Alan's at. 
             So thank you for serving my friend and our leader. I think 
             it's appropriate at this celebration as we witness Alan's 
             legacy, and I know we're in a church, but I just think 
             that we need to clap and thank this family and Alan. 
             [Clapping.]
               Now Tori, I know if you were standing up here, you would 
             say just as Alan would today, it's only by God's grace 
             that we're able to do anything, and we all know that Alan 
             and Tori realized that God is the source of their 
             strength. I know what they want us to do here is not just 
             to honor Alan but to honor God in this place. So in a 
             world with many countries, and countries with many 
             leaders, can one man make a difference? Well yes, it 
             depends on where his strength comes from. David, when he 
             faced Goliath, or Moses when he faced the Pharaoh, Paul, 
             when he had his many excursions and trials, and even Job 
             who faced more trials than anyone including Christ 
             himself. Many individuals make a tremendous difference, 
             when they use God as their source of strength. So Alan 
             sought his strength in Jesus Christ, and he was bold in 
             his faith. He never wavered back even in high school, Alan 
             was a solid man of character, he was true to his wife, 
             true to his family, his children, his friends and 
             colleagues, but most important he was true to God.
               It's often said that the true character of a man is 
             easily seen in a time of distress, and in very hard times 
             we have witnessed the character of Alan Nunnelee the past 
             several months. He is what defines a real man, and a great 
             man, and his legacy now reflects that.
               At a Prayer Breakfast before the swearing in to Congress 
             I stood before an audience with Alan, and our Nation being 
             in trouble deeper than most realize, and with probably the 
             only way to truly revive it was through God using one 
             faithful man at a time. So we publicly asked Alan, ``Are 
             you that man,?'' and looking at him we all believed that 
             he was that man, and we said, ``Let's go to battle.'' Alan 
             said, ``Let's go.'' Now, here we are, Alan has fought the 
             good fight, he's crossed the finish line, God is prepared 
             for him in God's time.
               In our human logic, we may ask, why did a great man like 
             Alan have to die, why now? We'll only know these answers 
             in God's presence, however some of those answers become 
             clear today for some of us in this service. Because we see 
             the testimony of a godly man and a godly family. So Alan's 
             gone, he's left, so what's our legacy, what will we lay 
             before God?
               In closing, as we celebrate Alan Nunnelee serving us, 
             with godly character his whole life, I truly believe if 
             Alan were talking to each one of you individually or if he 
             stood up here at this podium today his final words would 
             be, ``Well, I'm just doing fine, all is well, how are you 
             doing?''

             Rev. Doug Spires. Lamentations 3:22, 23 tells us this, 
             ``Because of the Lord's great love we are not consumed, 
             for his compassions never fail, they are new every 
             morning, great is your faithfulness.'' Let's sing it 
             together, we proclaim it together in a song. Lord, great 
             is your faithfulness.

             [``Great is Thy Faithfulness.'']

             Governor Phil Bryant. Alan Nunnelee was my brother, my 
             friend, and the best man I ever knew. Now he would not 
             like for me to say that, because he would think in his way 
             somehow, I might compare him to others in his goodness, 
             kindness, love, devotion, and character. He would never do 
             such a thing. He would always encourage others to be 
             better than they may be, not in an overt way but in Alan's 
             dear way. Tori, I had the last opportunity to visit with 
             him, it was such a joy.
               Children, I know that may seem strange under those 
             conditions and circumstances, with our dear friend's 
             health challenged in so many ways. But it was a joy for 
             me. I realized, as Tori did, it might be our last chance 
             to see one another this side of paradise. Now we will all 
             see Alan Nunnelee in the blink of an eye. I have a feeling 
             when I walk through those gates he will say, ``Well good 
             morning! How are you?'' When the sun is setting it will be 
             ``Good afternoon!''
               Alan and I came into the legislature, my second term and 
             I think his first in the senate, about 1995 and as we 
             began to work together during that legislative process I 
             realized this man was something very special. One writer 
             would say that if Alan Nunnelee would tell you something 
             you could guarantee that it was for certain. I felt that 
             same way and I thought how unusual it is that in this 
             great legislative body that telling the truth is such a 
             premium. That people would go about telling others, this 
             is Alan Nunnelee, if he is telling you the truth he really 
             means it. Oh he did. Sandra and Pat what a wonderful job 
             you did. What an amazing man he was.
               These last 2 days I've spent a good deal of my time 
             reading my Bible, searching for answers and quotes and I 
             realized this morning Alan Nunnelee had me reading my 
             Bible. One more time he made me a better person. He wasn't 
             even there but there I was searching Scriptures. I kept 
             coming back to the first psalm. David wrote, ``Blessed is 
             the man who does not walk in the council of ungodly, but 
             delights in the laws of the Lord.'' Mr. Speaker, I thought 
             about that. He delighted in the laws of the Lord. He shall 
             be like the tree. That was Alan Nunnelee. A tree. Strong 
             oak, that could stand against it seemed, any wind, storm, 
             challenges that came its way, but also offer the beauty 
             and the coolness of the shade that he would invite you 
             into. Just to rest and take comfort.
               ``A tree planted by the river of waters,'' writes King 
             David, I think he meant the Mississippi River. May not 
             have realized it at the time but of the rivers of water of 
             course is the great Mississippi and there was this great 
             oak of a man, Alan Nunnelee. Whatever he shall do will 
             prosper. Oh, did he prosper. Wonderful children, Reed, 
             Emily, Nathan, how proud he was of you and his wonderful 
             grandchildren, and Deborah and I have our first, so we 
             realize it's the best thing ever and Alan would tell me 
             that, ``Just wait,'' he would say. ``You just don't know 
             how wonderful life can be.''
               He was always telling me how wonderful life could be. 
             Even when he was appropriations chairman and I was 
             Lieutenant Governor, he would say, ``Don't worry Governor, 
             we're doing just fine.'' He had a strong faith like that. 
             I was thinking as I stood at this podium today looking at 
             Alan at this angle, it would be very similar as I would 
             stand there and say, ``The Chair recognizes Senator 
             Nunnelee.'' As he stood at that podium, he would always 
             have an Alanism. He would begin with some historical 
             reference. Something someone told him back home, and I 
             would think, ``Where are we going here Mr. Chairman?''
               He would tell everyone at the first appropriations 
             committee that he attended, that he was chairman of, I 
             think he stole that from Jerry Clower, you see he had 
             always been on the finance committee, in the senate, and 
             when I called on him to be chairman of the appropriations 
             committee he said, ``Governor, you may not realize it, but 
             I've never been to an appropriations committee meeting.'' 
             You see, they're divided in equal parts. So if you're on 
             finance you're always meeting in finance and you never get 
             a chance to go to appropriations in the same way, and he 
             said, ``Are you sure?,'' and I said, ``I'm pretty sure, I 
             prayed about this, and I think you're going to be 
             appropriations chair.''
               As the Chair recognized the appropriations chairman, 
             Alan did something remarkable, he let all that would come 
             share in that process. He would listen to everyone. Now 
             his door and hallways were always full. I thought there 
             was a point where more people wanted to talk to Alan 
             Nunnelee than they did to me. As appropriations chairman, 
             the Lieutenant Governor, is here today. He appreciates and 
             understands that, but you see, oh, did he prosper, and the 
             wonderful family, tremendous career, friends that love him 
             dearly, love him so much. His son-in-law and daughters-in-
             law, to which Alan, an Alanism, he would call son-in-love 
             and daughters-in-love. Daughters-in-love and son-in-love, 
             that was Alan.
               At special times he could capture that wonderful moment 
             of faith and joy and even in the most difficult of times. 
             I had never seen anyone quite like him. I thought at some 
             point, surely I will see that there will be an Alan that 
             will weaken in these storms that come on us. A flair of 
             anger perhaps somewhere along the way. Never. He was 
             always the strongest oak that could be.
               He called me when he was considering a run for Congress. 
             We had talked about it, he was my appropriations chairman 
             so I said, ``Alan, you are my right arm. What will I do if 
             you leave? We have another year of appropriations and some 
             of the most difficult times ahead of us.'' That was during 
             the times of the great recession. He of course said, ``Oh, 
             there are other people who can do this job much better 
             than I.'' Well we had other people, Senator Davis, but 
             Alan Nunnelee was that special man. He called me at home 
             one evening and he said, ``I have made a decision, I have 
             crossed the Rubicon,'' an Alanism. I said, ``Is that in 
             Lee County?'' I never had heard that before so I had to 
             look it up and see exactly what Alan meant. He had crossed 
             the Rubicon like Caesar into Rome, he was at the point of 
             no return. He realized that was the moment for him, he had 
             made that decision, he had intended to give it all his 
             energy. He had asked Tori and she had said OK.
               We would never do it without the women, I can assure 
             you. We would never even attempt it and we would never be 
             successful without these wonderful women that lift us up 
             and keep us strong and stand with us.
               So as Alan crossed that Rubicon, there we were 
             campaigning together. I said, ``I am on the way. Tell me 
             whatever I can do to help you.'' That was the way we 
             always were. If I needed his help in the political or 
             personal arena, he was coming. There was no doubt. He was 
             one of those friends that you can count on, no matter 
             where you're at, and circumstances did not matter to him. 
             If you needed the help, there were no questions afterward. 
             It was ``I will be there as quickly as I can.'' What a 
             remarkable man this was.
               There are so many things that I think of when I think of 
             Alan. I will certainly miss his friendship. Though that's 
             the selfish way of looking at it. But I had opportunities 
             to call and talk to him, to hear that encouragement again, 
             to hear the faith that he had in this great country. How 
             much he loved this wonderful State and those beautiful 
             grandchildren, especially that one.
               My favorite movie is ``It's a Wonderful Life'' with 
             Jimmy Stewart. In fact, Deborah can tell you, for many 
             years until they got old enough to rebel, I would force my 
             children to watch it. Oh, they would say, ``Here they go, 
             we have to watch `It's a Wonderful Life.' ''
               I wanted them to understand the meaning of what George 
             Bailey's life was about. Alan Nunnelee was much the same. 
             I notice little things in the movie each time I see it. In 
             Peter Bailey's office, George's father who passed away as 
             a young man, it seemed, in the movie there was a sign that 
             said, ``All you can take with you is that which is given 
             away.'' A sign in the office. Next time you watch the 
             movie, it's there hanging. All that you can ever take with 
             you is what you have given away. That was perfect for Alan 
             Nunnelee. He gave away so much. To everyone who came into 
             contact with him, he gave all that he had. He was the best 
             man that I ever knew.
               George Bailey thought his life meant nothing. Did he 
             make a difference? He kept wondering. In fact, he thought 
             it would be no different in the world if he had never been 
             born. A clumsy little angel named Clarence showed him the 
             difference. George Bailey changed the world around him for 
             so many. He made their lives whole. He built houses and he 
             was determined to make sure that everyone had an even 
             chance in life. He protected those who needed protecting; 
             he stood for those that had no one to stand for them. Alan 
             Nunnelee was as much a George Bailey in our time as could 
             have been. Clarence, after showing him what life would be 
             like without him, said to him, ``You see, George, each 
             man's life touches so many. When he isn't around, it 
             leaves an awful hole, doesn't it?''
               There's an awful hole in our lives now. Our friend is 
             gone on, to walk the streets of glory. I will miss him 
             dearly, as we all will. But I will never, I shall never 
             forget, what Alan Nunnelee gave me. To see his faith. To 
             believe as he believed. To know that one day again we will 
             be together in paradise with all those we love and 
             cherish. Alan Nunnelee was my friend, my brother, and the 
             best man I ever knew. I love Alan Nunnelee. I know that 
             God loves him too.

             Rev. Doug Spires. Tori asked for me to share with you that 
             this is one of Alan's favorite songs. Now that he is in 
             glory face-to-face with the Lord Jesus who he loved so 
             much, I have no doubt he would want you to know the 
             impending truth of this song.

             [``The King is Coming.'']

             Reed Nunnelee. I was with him this summer when a physical 
             therapist walked in the hospital room and she sheepishly 
             confessed, ``You know, we've been meeting in the lunchroom 
             and none of the therapists are sure what to call you. You 
             know? Do we call you Mr. Congressman? Do we call you Mr. 
             Nunnelee? Do we call you Your Honor?'' He grinned at her. 
             ``Oh, almost 56 years ago, Pat and Sandra Nunnelee thought 
             Alan would be a pretty good thing to call their little 
             boy. Why don't you just use that?''
               You see, he was important, sure enough, but he was not 
             ever self-important. He took his job very seriously but he 
             never took himself all that seriously. You know, he didn't 
             get hung up on titles. Sure he'd introduce himself as 
             Congressman Nunnelee, if that would help a veteran get his 
             benefits, but otherwise, well, he was just Alan. He could 
             talk with crowds and walk with kings, but never lose the 
             common touch. Most of you in this room knew him by one of 
             his many political titles: Mr. Chairman, Senator, 
             Congressman. But if you hung around him long enough, you 
             knew that there was one title that he was proudest of. He 
             called it the most important title he's ever held, and it 
             wasn't chairman, and it wasn't senator, and it wasn't U.S. 
             Congressman. Well I could say it but he gave the 
             commencement address at my law school graduation, so I'm 
             going to let you hear it from him.

             [Video plays.]

             Emcee. Please join me in giving Congressman Alan Nunnelee 
             a warm MC Law welcome as he delivers our commencement 
             address.

             Alan Nunnelee. Thank you. It is a privilege to be here. 
             It's an exciting day. One of my three children is a member 
             of the graduating class, so while I may have a lot of 
             titles, the title I'm most proud of is dad. Reed, I'm 
             proud of you.

             Reed Nunnelee. How about that. There are only three people 
             in this world that have the absolute privilege of using 
             that title. I am so proud to stand before you today and be 
             able to call him dad because as dynamic a State leader as 
             he was, as faithful a public servant, I assure you he was 
             a better daddy. I told my Aunt Shannon I empathize with 
             the Gospel writer a little bit who concluded his book by 
             saying, ``Look, if everything that Jesus did was written 
             down, there wouldn't be enough books in the world to 
             contain all of that.''
               Well, I can't keep you here all day, but I did ask my 
             siblings to write down something about their dad. My 
             youngest brother Nathan wrote this:

               In 2007 people began talking about the upcoming 
             statewide election. My dad had served in the State senate 
             for 12 years and had established himself as a workhorse in 
             Jackson and a politician who could get things done. His 
             natural leadership abilities, his incredible work ethic 
             and his ability to find solutions made him an obvious 
             candidate for one of those statewide positions. Many 
             people began to approach dad about running for Lieutenant 
             Governor. Well, dad loved Mississippi and knew that if 
             elected to that position he would have the opportunity to 
             serve Mississippi in a way he never could before. However, 
             dad chose not to run, and the question that came to 
             everybody's mind was, ``Why? Why would a man with such a 
             love for this State and such a desire to serve choose not 
             to pursue that position?'' What's more, why would a 
             candidate with such obvious support choose not to run? 
             Publicly, dad just downplayed those questions, but 
             privately dad explained to us why he wasn't going to run.
               I was 16 years old in spring 2007 and was getting ready 
             to start my senior year at Tupelo High School. Dad knew 
             that running for Lieutenant Governor would require him to 
             spend much of the summer and fall campaigning around the 
             State and doing so would mean that he would be gone for 
             most of my senior year. Dad chose not to run so that he 
             could spend time with me before I left for college. It was 
             important to him to be there for me. When he said, ``the 
             title I'm most proud of is dad,'' those weren't just words 
             to him, he lived it. Through his actions, he was telling 
             me ``I love you.'' He was saying, ``You have value. I 
             value you more than I value men's praise. I love and value 
             you more than my career, or money, or success. I love and 
             cherish my time with you more than anything this world 
             could offer.''
               Over the past few months, dad became very intent about 
             telling us how proud he was of us. He told me many times, 
             ``I love you and I'm proud of the man that you've 
             become.'' Those are words every son needs to hear, but for 
             me, it was something dad showed every day.

               The middle child, my sister Emily, wrote this:

               As a little girl, my dad often took me on daddy-daughter 
             dates. He always let me choose what we would do for our 
             date which inevitably meant I would ask him to go to the 
             mall and pick out pink dresses. Every now and then he 
             would surprise me with a special date to the Velveteen 
             Rabbit. There he would let me pick out any outfit in the 
             store. These became my favorite outfits because he would 
             always tell me I looked beautiful, like his little 
             rosebud. I cherished those dates with my dad because it 
             was time he set aside just for us.
               My freshman year in high school, a boy came to our house 
             to pick me up for my first date. My dad met him at the 
             door and shook his hand. Looking him in the eye he said, 
             ``You better take care of my little girl, son, she's the 
             only one I got.'' This soon became the tradition for any 
             boy who came to pick me up on a date. Even when I went to 
             college, I would call my dad for him to tell my dates over 
             the phone. Only later did it occur to me what my dad was 
             doing when he took me on daddy-daughter dates. He took me 
             on dates to show me how his little girl deserved to be 
             treated. Later he made sure those boys who came to our 
             house knew he was entrusting them with his precious little 
             girl, and he expected her to be treated with respect.
               On my wedding day, my dad walked me down the aisle right 
             here in this church. When we got to the front of the 
             church, he reached out his hand to my future husband and 
             said, ``This is the last time I'll get to say this and it 
             brings me joy knowing you'll do this. You better take care 
             of my little girl son, she's the only one I've got.''
               Over the past 9 months, I had the privilege of meeting a 
             lot of the doctors and nurses that cared for my dad. With 
             every caregiver I met, I found myself telling them, ``You 
             better take care of my dad. He's the only one I've got.'' 
             Every time I said that, my dad would grin. He knew that I 
             meant it. So now, for one last time I say, ``God, you 
             better take care of my dad. He's the only one I've got.''

               You know, I remember. When dad comes home from work, you 
             know what kids do. You just kind of assault him at the 
             door. Well, he'd no more than get one foot in the door and 
             I'd come up there with questions. Well having inherited 
             his love for baseball, I'd always have the same one, 
             ``Hey, dad, you want to play catch?'' Well, I'm a dad 
             myself and I know how easy it can be to say, ``Oh, you 
             know Buddy, I've had a long day at work. I'd really just 
             like to take a load off. Can I sit on the couch?'' I never 
             got that response from dad. It was always the same. This 
             is verbatim, ``Hey, dad, you want to play catch?'' 
             ``Absolutely! There is nothing so important in the world 
             that it can't wait for me to play catch with my little 
             boy.''
               Every night when he tucked us in bed, he'd tell us a 
             story, and conclude with the same message. In fact, the 
             night before he went in for brain surgery, I asked him to 
             record a video for my two children. ``Dad, just tell them 
             whatever's on your mind. Whatever you want them to know.'' 
             He told them the same thing I'd grown up hearing every 
             night. It's on the screen.

             [Video.]

             Alan Nunnelee. Harper, Poppy loves you. I'll never forget 
             how it felt the first time I saw you and how proud I was. 
             I want you to know that you are special. You're special 
             not because of anything you'll ever do in life, or 
             anything you'll ever own or accomplish. You're special 
             because God made you special. If God makes you special, 
             nobody can make you un-special.

             Reed Nunnelee. You're special because God made you 
             special. If God makes you special, nobody could ever make 
             you un-special. Let me tell you, that's something every 
             little boy and girl needs to here.
               That's what he was saying when he decided to forgo his 
             State election. That's what he was saying when he talked 
             to my sister's dates and that's what he was saying when he 
             threw the baseball with me. We're special, we have value. 
             Well I'll tell you as much as I learned from dad growing 
             up, I learned at least that much in the last few months. 
             When dad gathered us all around to deliver the diagnosis, 
             he began by saying, ``Let me tell you my attitude about 
             this whole deal. You know, `Amazing Grace' has always been 
             one of my favorite hymns. One verse in that hymn says 
             `Through many dangers, toils, and snares, I've already 
             come. It's grace that's brought me safe thus far and grace 
             will lead me home.' ''
               He had surgery last summer to remove most of the tumor. 
             Well the night before the surgery I had an opportunity to 
             talk with him and tell him the things on my heart. You 
             know it wasn't anything I hadn't already said but it was 
             good to sit down to tell him those things again. He said, 
             ``Reed, I taught you how to ride a bike, I taught you how 
             to shave, I taught you how to throw a curveball. 
             Unfortunately, it looks like I am going to have to teach 
             you what it looks like for a Christ follower to walk 
             through something like this.'' Oh, and teach he did.
               When the doctors told dad how serious his cancer was his 
             attitude from the very beginning was to consider how 
             blessed he was. He and my mom reminded everyone that the 
             Bible says in all things give thanks and that's the 
             attitude they adopted. They handed out these bracelets 
             which many of you are wearing which are inscribed with 
             that verse. ``You know,'' he said, ``You don't just give 
             thanks when your bill gets signed into law, you don't just 
             give thanks at a victory party on election night, you give 
             thanks even when you find out you are dying of cancer 
             because God richly blesses and we have a lot to be 
             thankful for,'' and that's what dad did.
               You know they began writing down all of their blessings 
             on a poster board. I have it here. In all things give 
             thanks. Well one poster board turned into two, into three, 
             and before you knew it we had nine poster boards filling 
             up the walls in every hospital we went to and they were 
             hanging on the wall when dad spent his last days at home, 
             to remind us that God richly blesses and in all things to 
             give thanks.
               You know his attitude was just relentless. Many of you 
             know he had a stroke during the surgery. Well he couldn't 
             speak right after the surgery. He was paralyzed on his 
             left side. We're talking about a politician who can't walk 
             and talk. Many of us would sit down and quit. That's not 
             what dad did. Sitting in a hospital bed, his speech was 
             garbled and he told me, ``Reed, put on `Beethoven's Fifth 
             Symphony.' '' All right, OK. He told me a story you know. 
             Many of you know that when he was in college he went 
             blind. He said he would sit in that dorm room and lay on 
             his bed and he would listen to ``Beethoven's Fifth 
             Symphony.'' Couldn't see a thing but he said, ``You know 
             when Beethoven wrote that he had started going deaf and I 
             knew sitting on my little dorm room bed that if God can 
             speak one of the greatest pieces of music to a deaf man, 
             he can do the same with a little blind boy. That was the 
             attitude he carried.
               ``Anything the mind of man can conceive and believe it 
             can achieve.'' That's what he said. Well I wrote that 
             down. You know when PT and OT would come in I know what my 
             response would probably be--``Oh, I don't want to do 
             this.'' That's not what dad said. He would look them in 
             the eye and say, ``I'm ready to work hard.'' They said, 
             ``We wish all of our patients had that attitude.'' He 
             said, ``the last freedom any man has is the freedom to 
             choose his own attitude.'' I wrote that down.
               We were in Baltimore at Johns Hopkins before a big PT 
             session and I was trying to temper his expectations. I 
             said, ``Dad, you know you had a great day yesterday. You 
             know it's fine if you can't do everything today and need a 
             little rest.'' ``My job,'' he said, ``is not to rely on 
             past successes but to draw on them.'' I wrote that down. 
             It's like a Jedi master.
               You know I also learned during the last few months how 
             proud he is of our State. I heard him on many occasions 
             implore the therapist to visit the New Mississippi as he 
             called it. He was so proud of how much progress 
             Mississippi has made over the past few decades especially 
             in the area of race reconciliation. He was so proud of his 
             generation for their role in integration. While lawmakers 
             and teachers and coaches and parents were certainly 
             instrumental in that change, it was the kids who made it 
             work and he was proud of that. That's why in our house dad 
             didn't dismiss racism as some quaint little southern 
             quirk, he rebuked it for the sin that it is. ``I don't 
             think God will hold me accountable for the Mississippi my 
             grandparents created, but he will make me answer for the 
             Mississippi my grandkids grow up in.'' So it won't 
             surprise you that I remember many Sundays sitting in the 
             back of a mostly African American church because dad had 
             been asked to preach.
               A few months ago we spent the weekend visiting mom and 
             dad in Tupelo. It came time for me and my family to go 
             back to our home in Jackson, and I became emotional 
             because I didn't know how many more goodbyes I was going 
             to get. Dad reminded me that in all likelihood this 
             wouldn't be our last goodbye but if it is he said, 
             ``aren't you glad we can say it without any regrets?'' And 
             I am. See unlike many people who get told they have 14 
             months to live, dad didn't have to spend the last few 
             months of his life making amends for strained 
             relationships or going to former friends and apologizing. 
             He often quoted one of his favorite proverbs which served 
             him well in politics. ``When a man's ways please the Lord 
             he makes even his enemies be at peace with him.'' So this 
             morning I am sad beyond belief but I don't despair because 
             I had a daddy who taught me the most important lesson that 
             real joy is found only in Christ.
               I'm reminded of a story he told. When dad was growing up 
             in Columbus, Mississippi, he learned a song in Sunday 
             School that says ``This joy that I have, the world didn't 
             give it to me, the world didn't give it, and the world 
             can't take it away.''
               Well when he chaired the appropriations committee he 
             said they were literally about 2 minutes away from a 
             government shutdown and other fellow legislators would say 
             ``You know you've got to be under more stress than anybody 
             in the State right now but we don't hear it in your 
             voice.'' ``This joy that I have,'' he said, ``The Capitol 
             didn't give it, and the Capitol can't take it away.''
               I decided to let dad close this one out. You know I 
             mention he gave the commencement address at my law school 
             graduation and his speech focused on how quickly our 
             culture is changing. How are law school graduates supposed 
             to deal with that change? Well there was a bigger lesson 
             that he wanted us to hear.

             [Video.]

             Alan Nunnelee. There's another aspect of change. It's much 
             more personal than the macrochange that I talked about. 
             The large economy, the changes in technology. It's a 
             change that hits home to every individual. It's the type 
             of change that comes when you're sitting in the examining 
             room. The seconds tick by like hours as you're waiting for 
             the physician to walk in and the physician walks in and 
             says, ``We have the results of the tests. They're not 
             good.'' At that moment you know your life is going to 
             change.
               When the phone rings at 2 a.m., and if you wake up and 
             try to shake the sleep from your brain, you answer the 
             phone and a cold sweat breaks out, because your worst 
             fears become reality. That's a much more personal change. 
             Or, you're called in at work, and they use different 
             phrases: downsizing, cutbacks, and budget reductions. But 
             the end result is all the same. You thought your life was 
             planned out for the next several years. And all of a 
             sudden, your life is changed.
               I would encourage you, in order to prepare for that 
             day--and those days come to us all--make sure there is 
             something in your life that doesn't change. I've had a 
             great role model in that area, my dad happens to be here 
             to watch his grandson graduate. At age 41, he took a job 
             with a very small fledgling company based in Mississippi 
             and over the next 18 years dedicated his life to watching 
             and making that company grow. As it grew to a major 
             national force, he approved all of the benefits and 
             recognition including financial that came with that role. 
             The company became so large and so successful that it 
             became attractive to outside investors who came in and 
             said, ``This is great. We are going to add three more 
             companies to this operation and we're going to make you a 
             major national leader and you're going to have even more 
             opportunities than before.''
               A very short time after that merger they came to see him 
             and in less than 5 minutes time, his career was over. Then 
             they brought in a psychologist from way out of town. My 
             dad looked at that psychologist who he didn't know and he 
             said, ``Look, let me explain something to you. As a little 
             boy in a small country church in Eastern Pontotoc County, 
             I put my faith and trust in Jesus Christ. He said, ``It's 
             a good thing I didn't have my faith and trust in a 
             company, because if I did, I would be reaching to hold on 
             to something that wasn't there.''
               Graduates, I encourage you in order to cope with change, 
             put your faith in Christ, in Jesus Christ, something much 
             more important, much more lasting, than anything that 
             you'll see here today.

             Reed Nunnelee. That's the man who served our State for so 
             many years and that's the man I am so proud to call dad.

             [``Be Thou My Vision.'']

             Dr. Ed Deuschle. Haven't we been blessed beyond measure? 
             All these powerful testimonies of Alan Nunnelee's life. I 
             was in his room on Wednesday when I saw him for the last 
             time, and I saw those placards all over the wall, seeing 
             all the things he was thankful for, and all the people he 
             was thankful for. I looked on one and there in the middle 
             was Uncle Ed. I'm Uncle Ed, and I was proud to be on that 
             list of people for whom he gave thanks. Jesus, in the 
             Sermon on the Mount, said, ``You are the salt of the 
             Earth.'' He also said, ``You are the light of the world. 
             Let your light so shine before men that they might see 
             your good works and glorify your Father who is in 
             heaven.''
               Alan took those words of Jesus quite seriously. He 
             became the salt of the Earth, he became the light of the 
             world, and even those in the House saw the glory of God in 
             the life of Congressman Alan Nunnelee. I rose early this 
             morning in my motel and at about 5 in the morning, I had 
             gone down to the lobby to grab a cup of coffee. The 
             television was on, and there was a beautiful tribute to my 
             nephew, and I was all alone watching it, watching news 
             footage that I had not seen before. It was very touching.
               Right after that, there was a story of a young man who 
             spoke recently at Auburn Baptist Church, a nearby church 
             in Lee County, and I was intrigued by what I saw. His name 
             was Clay Dyer. Clay was born with no legs, missing one 
             complete arm on one side and had a partial arm on the 
             other side, and he was in a mobilized wheelchair. He had 
             been at Auburn Baptist Church where they filmed this and 
             he was just sharing his testimony. He was a professional 
             fisherman if you could believe that. Yet he shared that 
             the secret of his life was his relationship with Jesus 
             Christ. He said, ``Nobody has an excuse when they look at 
             me, for not experiencing the joy of the Savior.'' Here was 
             a man who did not look down at what he lacked, but he 
             looked up at what he had. That was my Alan. When he was 
             blind at Mississippi State, coping with an illness at the 
             end of his life and all the challenges in the middle of 
             life. Alan never looked down at what he lacked. But he 
             always looked up with what he had. I think Uncle Ed 
             probably taught him this. I've heard it reiterated several 
             times. I think I'm the teacher.
               We cannot control what life does to us, none of us can. 
             We can decide what we will do back to life. Regardless of 
             the circumstances, Alan faced the circumstances of life 
             with faith in God and the Lord Jesus Christ. He took one 
             step at a time forward with persistence, prayer, and as it 
             has already been so beautifully stated in everything he 
             gave thanks for. This is the will of God in Christ Jesus, 
             concerning God's children.
               You've been sitting a long time, and Alan would want you 
             to stand and stretch your legs, but also to show respect 
             for God's word. I want to dedicate the 112th Psalm to my 
             nephew. Would you stand in reverence for the word of God. 
             Listen very carefully to what this passage says.
               ``Praise the Lord. Blessed is the man who fears the 
             Lord, who finds great delight in His commands. His 
             children will be mighty in the land. The generation of the 
             upright will be blessed. Wealth and riches are in his 
             house and his righteousness endures forever. Even in 
             darkness, light dawns for the upright, for the gracious 
             and compassionate and righteous man. God will come to him 
             who is generous and lends freely, who conducts his affairs 
             with justice. Surely he will never be shaken. A righteous 
             man will be remembered forever. He will have no fear of 
             bad news. His heart is steadfast, trusting in the Lord. 
             His heart is secure. He will have no fear. In the end he 
             will look in triumph o'er his foes. He has scattered 
             abroad his gifts to the poor. His righteousness endures 
             forever. His horn will be lifted high in honor.''
               Another version simply says, ``His deeds will never be 
             forgotten. He shall have influence and honor.'' May God 
             bless the reading of the Scripture. You may be seated.
               In 1904, a woman by the name of Bessie Stanley wrote 
             these famous words, ``It has been said,'' she said, ``That 
             a successful person is one who lived well, laughed often, 
             and loved much. Who has enjoyed the trust of pure women, 
             the respect of intelligent men, and the love of little 
             children. Who has filled his niche and accomplished his 
             task, and who has left the world a better place than he 
             found it. Who has never lacked appreciation of Earth's 
             beauty, or failed to express it. Who always looked for the 
             best in others and gave them the best he had. Whose life 
             was an inspiration, and whose memory, a benediction.'' No 
             wonder the Bible says the memory of the just is blessed.
               Alan knew a lot of Scripture. He could quote a lot of 
             Scripture. Alan valued that proverb that says that ``A 
             good name is rather to be chosen than great riches and 
             loving favor rather than silver and gold.'' But he also 
             understood the paradoxical statement in Ecclesiastes 7:1 
             that said, ``A good name is better than precious ointment, 
             and the day of death is better than the day of one's 
             birth.'' Isn't that something to think about? ``The day of 
             death is better than the day of one's birth.''
               It has been said that faith grows a Christian, life 
             proves a Christian, toil confirms a Christian, and death 
             crowns a Christian. One of my favorite verses is Psalms 
             116:15, that simply says, ``Precious in the sight of the 
             Lord is the death of His saints.'' The word ``precious'' 
             is a word that literally means an experience to be highly 
             valued, to be highly esteemed. It's the greatest single 
             moment of a person's life when they take their last breath 
             and they're absent from the body and precious, they're in 
             the presence of the Lord. Precious in the sight of the 
             Lord is the death of His saints.
               Alan loved sports, he loved sports personalities. He 
             would be thrilled that I'm using a quote from Lou Holtz to 
             formulate my thoughts today. I was watching ESPN, a 
             commentary and Lou was involved, and I don't know what in 
             the world they were discussing, but all of a sudden, he 
             just stopped what he was thinking about and went on a 
             completely different track talking about a life 
             application lesson from his heart to every one of us, and 
             he said, ``Listen to me. Everyone needs something to do, 
             someone to love, something to believe in, and something to 
             hope for.'' I want you to understand that Alan had 
             something to do in this world. God ordained his steps, 
             orchestrated his life, but God gave him a lot to do as he 
             asked many other of these distinguished guests that are 
             here today.
               I go back to Deuteronomy 6:4 after Moses had given the 
             Ten Commandments to the Hebrew children, he gave 
             instructions to the patriarchs of the land, the leaders of 
             the land, the heads of the homes of Israel, and he wanted 
             them to heed that instruction that said, ``The Lord our 
             God, the Lord is one. Love the Lord your God with all your 
             heart, with all your soul, with all your strength. And 
             these commandments that I give you today are to be upon 
             your hearts. Impress them on your children. Talk about 
             them when you sit at home. When you walk along the road, 
             when you lie down, and when you get up.''
               Alan took that instruction very seriously. I believe 
             that the key to a great nation is a great home. This is 
             teaching us that in a home setting, the man is to be the 
             spiritual leader in the home. He is to be a role model, as 
             has been shared by his son and others. Alan was that role 
             model, who modeled Christianity, and he taught by precept 
             and personal example. The Bible said, ``So whether eat or 
             drink, whatever you do, do it all for the glory of God.'' 
             I just want to briefly talk to you about a life that 
             glorifies God and that's my Alan.
               Ray Kroc was the founder of the McDonalds fast food 
             franchise, and I am not trying to diminish him in any way 
             at all publicly, but Ray Kroc was once asked the question, 
             ``Sir, what do you believe in?'' He thought for a moment 
             and said, ``I believe in God, I believe in family, and I 
             believe in McDonalds. But when I go to work on Monday, I 
             reverse the order.'' That could never be said of Alan 
             Nunnelee. Alan kept his priorities straight, and God and 
             God's will were the primary concerns of his life.
               Patrick Morley, in his book ``Walking with Christ in the 
             Details of Life'' said that spiritual excellence is not 
             ascending the ladder of leadership to greatness, it is 
             about descending the ladder of humility to servanthood. 
             That's just what our Lord Jesus taught us. Whoever wants 
             to be great among you must be your servant and whoever 
             wants to be first must be slave of all. That is what Alan 
             chose to be. A servant to the King of Kings and the Lord 
             of Lords and a servant to the people of his State, 
             community, to the Nation, and the world. Alan had 
             something to do.
               But Alan also had someone to love. I am overwhelmed with 
             what I have seen over the last 2 days. Visitation 
             yesterday was 6 hours long. Today, 2 more hours. Eight 
             hours of people coming through the line from all over the 
             country to say, ``We loved Alan.'' We love Alan's family, 
             and many of you made a long journey today because Alan 
             first loved you. Alan had a lot of people to love. Jesus 
             said, ``A new command I give you: Love one another as I 
             have loved you. So you ought to love one another and by 
             this all men will know that you are my disciples if you 
             love one another.''
                I will just briefly tell you that the love of his life 
             was his wife, Tori, and I had the privilege of assisting 
             in their wedding ceremony 34 years ago at Morrison Heights 
             Baptist Church in Clinton, Mississippi. Dr. Kerman 
             McGregor began the wedding ceremony and I did the vows, 
             exchanged the rings. I got to the point after they had 
             exchanged their vows and I looked at Alan and Tori, and I 
             said to them, ``If these vows are solemnly kept and 
             faithfully discharged, they will add to the happiness of 
             this life, dividing the inevitable sorrows, and 
             multiplying all its blessedness. But if these obligations 
             are neglected and violated, you cannot escape the keenest 
             misery and the darkest guilt.'' Alan would laugh and 
             remind me all the time, ``You really tied a tight knot.'' 
             Then he said, ``I couldn't bear to think of facing that 
             keenest misery and that darkest guilt.'' Alan was faithful 
             to every vow he ever took. Whether it was to his precious 
             wife Tori, or to the Lord Jesus Christ, or to the 
             Government of the United States of America, Alan was a 
             keeper of his vows. Tori, again, I've said privately and 
             I'll say publicly, I've never seen a spouse take better 
             care of a husband than you have done, and we thank you.
               Alan had something to do, he had something and someone 
             to love, and also, as old Lou Holtz said, we need to have 
             something to believe in. That's where the faith dimension 
             of Alan's life comes in. He was a consecrated Christian. 
             He was following his Lord, Jesus Christ, regardless of 
             whether anybody else would follow or not. Alan was 
             committed to following and always trusting and obeying 
             Jesus Christ. I can remember when Jesus told his 
             disciples, ``I'm going to leave you soon. I'm going to die 
             a horrible death. And I'm going to be leaving you and I'll 
             no longer be with you in a physical sense.'' The Bible 
             said that their hearts were troubled, deeply in sorrow. 
             Then Jesus said to them, ``Let not your heart be troubled. 
             You believe in God, believe also in me. And in my Father's 
             house are many mansions. If it were not so, I would have 
             told you. But I go to prepare a place for you, and if I go 
             and prepare a place for you, I will come again and receive 
             you unto myself, that where I am, there you may be also.
               One of the disciples present said, ``Well we don't know 
             the way.'' Of course Jesus said, ``I am the way, the 
             truth, and the light, and no man cometh to the Father but 
             by or through me.'' That's usually where we stop. But the 
             very next verse may be the most important verse of all, 
             where He said, ``If you had known me,'' Jesus said, ``you 
             should have known my Father also, and from henceforth you 
             know Him and you see Him. Alan may have been blind, but he 
             could see God, every moment of every day. Alan had someone 
             to believe in.
               I also want you to know that Alan had his whole life 
             shaped by his Christian faith and his focus. His beliefs 
             in Jesus Christ shaped his convictions, his character, his 
             compassion, and on and on. But I also know that Alan, like 
             the great apostle Paul, could simply say that I am not 
             ashamed of the Gospel because it is the power of God in 
             salvation who for everyone who believes, first for the 
             Jew, then for the gentile. He was unapologetically 
             Christian. That there was one way to God, not many ways to 
             God, and that one way was to be saved by grace alone 
             through faith alone in Jesus Christ alone, never depending 
             on his good works or good deeds or human achievements. He 
             gave God all the glory. The apostle Paul said, ``May I 
             never boast except in the cross of our Lord Jesus Christ. 
             Through which the world has been crucified to me and I to 
             the world.'' They started to put a flower over my lapel 
             cross and I said, ``No, you can't do that.'' I said, 
             ``Because the cross is the greatest symbol that the eyes 
             of man can ever look upon. It is a symbol of what sin will 
             do, it is a symbol of what love will bear, it is a symbol 
             of what forgiveness cost, and a symbol of what every human 
             being is worth.''
               And I thought, ``Well I better boast of Alan and all of 
             his achievements.'' But I said, ``I know Alan, and Alan 
             would not want me to boast of human achievement or 
             accomplishment. He would not want to call attention to 
             himself but he would want to boast only of the Lord Jesus 
             Christ, who died on the cross to save him from his sins, 
             and to give him forgiveness, and to grant him the gift of 
             everlasting or eternal life.
               Lou Holtz said, ``Everybody needs something to do, 
             someone to love, someone to believe in, and finally 
             something to hope for.'' When I was a young boy, I went to 
             Mickey Owen baseball school in Miller, MO, and I met a 
             legendary baseball player by the name of Pepper Rodgers. 
             He made a statement, Pepper Martin, excuse me. He had just 
             won a World Series, and somebody asked Pepper, ``Now that 
             you've won the World Series, what do you want to do?'' He 
             quickly said to the reporters, ``I want to go to heaven 
             when I die.'' Everybody laughed, thought he was making a 
             joke. But then he got dead serious and he said, ``Ladies 
             and gentlemen, I just told you the truth that when I die, 
             I want to go to heaven to be with the Lord.'' You see, 
             hope is not wishful thinking when you believe in the 
             Gospel. It's a sure thing. Now faith is being sure of what 
             we hope for, and certain of what we do not see.
               I can remember where I was in 1995 just before Hurricane 
             Rita hit the coast of Texas. I was in Dallas at a 
             convention of church planters, the largest gathering of 
             church planters from all over the world. They told us the 
             storm is coming and if you're afraid you need to get out 
             of town and go home, and so I was one going home. But 
             there was a man by the name of John Maxwell who was about 
             to speak and I said, ``I'm going to listen to that man 
             before I go to Tupelo, back to northeast Mississippi.'' 
             John Maxwell, I can't even remember what he was talking 
             about, but all of a sudden in the middle of his message he 
             did a Lou Holtz kind of thing, and he stopped and looked 
             at us, and he said, ``I want you all to know something. I 
             want to make a difference with the people who make a 
             difference. At a time in history when it will make a 
             difference, doing something that will make a difference.'' 
             That is Alan Nunnelee. He was concerned until the very 
             end, asking his brothers and sisters, ``Have I made a 
             difference?'' I can say, ``Yes Alan, you really made a 
             difference.''
               As you sum up all that has been experienced today, think 
             of the influence of your life, the impact of your witness. 
             If you don't know Jesus Christ as Lord and Savior, we hope 
             and pray you'll find him today. You'll invite him into 
             your heart as Alan did as a 6-year-old boy and let Christ 
             transform you from the inside out. If you are a Christian, 
             rededicate your life to the lordship of Jesus Christ today 
             and be determined from this moment on that you're going to 
             make a difference with the people who are going to make a 
             difference doing something in history that is going to 
             make a difference at a time when it will be important for 
             you to make that difference. Alan has hope because of the 
             death, burial, and resurrection of Jesus Christ. That's 
             where our hope comes from. I looked at what cancer did to 
             his body and I was reminded of the beautiful truth that 
             death is powerless now. Death cannot cripple love; it 
             can't shatter hope; it can't corrode faith; it can't eat 
             away peace; it can't destroy confidence; it cannot kill 
             friendship; it cannot shut out memories and silence 
             courage; it cannot invade the soul; it cannot reduce 
             eternal life; it cannot quench the Holy Spirit; and it 
             cannot lessen the power of the resurrection. To God be the 
             glory for his child Alan Nunnelee. He made a difference.
</pre></body></html>
